                                    Table of Contents

                                                           Page

I.      INTRODUCTION                                        2


II.     AUDITS                                              5


III.    INVESTIGATIONS                                      9


IV.     LEGISLATION                                         14


V.      MANAGEMENT AND ADMINISTRATION                       17


VI.     SPECIFIC REPORTING REQUIREMENTS OF SECTION 5(a)
        OF THE INSPECTOR GENERAL ACT                         18


ATTACHMENTS


A.      TABLE I: OIG AUDIT REPORTS WITH QUESTIONED COST


B.      TABLE II: OIG AUDIT REPORTS WITH RECOMMENDATIONS
        THAT FUNDS BE PUT TO BETTER USE




Semiannual Report to the Congress                               Page 1
                                      Introduction
   The Federal Communications Commission (FCC) is an independent regulatory agency
   exercising authority delegated to it by Congress under the Communications Act of 1934 as
   amended by the Telecommunications Act of 1996. The FCC is charged with regulating
   interstate and international communications by radio, television, wire, satellite and cable.
   The FCC's jurisdiction covers the fifty states, the District of Columbia, and U.S.
   possessions. The mandate of the FCC under the Communications Act is to make available
   to all people of the United States a rapid, efficient, nationwide, and worldwide wire and
   radio communication service. The FCC performs four major functions to fulfill this
   charge:

        •    spectrum allocation;
        •    creating rules to promote fair competition and protect consumers where required by
             market conditions;
        •    authorization of service; and
        •    enforcement.

    The Chairman and four Commissioners are appointed by the President and confirmed by
    the Senate. William E. Kennard was confirmed as Chairman on October 29, 1997.
    Harold W. Furchtgott-Roth, Michael Powell, Gloria Tristani and Susan P. Ness serve as
    Commissioners. The majority of FCC employees are located in Washington, DC. FCC
    field offices and resident agents are located throughout the United States.

    During this reporting period, components of the FCC were relocated to the Portals II
    facility located at 445 12th Street, SW, Washington D.C. FCC headquarters staff will be
    housed in entirety in the Portals II by the end of June 1999. The Office of Inspector
    General (OIG) now occupies space on the second floor of the Portals II. OIG personnel
    have worked actively with responsible Commission officials to ensure that the unique
    requirements for both security and confidentiality of persons wishing to visit the office
    are best addressed within the constraints of the open office concept. In addition, OIG
    personnel have worked with the FCC Security Officer to evaluate overall building
    security and develop recommendations as appropriate to best ensure the safety and
    integrity of FCC staff and operational systems.

    In a related matter, on March 22, 1999, the General Services Administration (GSA) OIG
    responded to a referral by this office. Specifically, our review of internal FCC
    documentation reflected that GSA officials ratified change orders with the Portals II
    lessor without adequate documentation to support the fairness and reasonableness of the
    prices agreed to. Acting at our request, the GSA OIG initiated audit activity culminating
    in the issuance of the “Audit of Change Orders Portals II”. The GSA OIG substantiated
    that seven change orders totaling $14.7 million were ratified without “evidence that
    appropriate steps were consistently taken to ensure the prices accepted are fair and
    reasonable.” Furthermore, GSA OIG reported that markups in these change orders
    were “at a rate far in excess of those found in other GSA lease arrangements.”

    The Commission remains actively involved in the auctioning of spectrum as authorized
Office of Inspector General                                                          Page 2
    by the U.S. Congress in the Omnibus Budget Reconciliation Act of 1993. The OIG
    continues to place significant emphasis on evaluating and testing the security and
    reliability of automated systems dedicated to the successful conduct of all phases of
    spectrum auctions. The emphasis on spectrum auctions extends towards the assessment
    of the collectibility of delinquent debts that have arisen out of the spectrum auctioning
    process and evaluating the portfolio management activities of the FCC to ensure that
    these practices minimize losses to the Government. The FCC OIG is participating in a
    multi-agency OIG review entitled “PCIE/ECIE Review of Non-Tax Delinquent Debt”.
    Fieldwork was initiated during this reporting period and is targeted for completion by
    the close of Fiscal Year (FY) 1999.

    In this reporting period, the FCC OIG, with the support of an independent CPA firm,
    initiated a three-tier approach, which will culminate in the rendering of an opinion on
    the FCC’s FY 1999 financial statements. The work will be performed in accordance with
    generally accepted auditing standards (GAAS), Government Auditing Standards (GAS),
    and OMB Bulletin No. 98-08. This effort will represent the first comprehensive financial
    statement audit since the FCC converted to a new financial system. The work will result
    in: (1) a comprehensive planning document; (2) internal control compliance testing; and,
    (3) performance of substantive financial audit testing necessary to render an opinion on
    the FCC’s FY 1999 financial statements.

    The OIG closed-out activity related to a major investigation concluded during a prior
    reporting period. On March 23, 1998, OIG Investigative Report 96-2-A-04 was
    forwarded to the Chairman. This report identified improper administrative conduct on
    the part of FCC employees that established an environment in which the FCC was highly
    vulnerable to illicit activity on the part of a subcontractor. Prompt and decisive
    intervention by OIG personnel minimized the financial loss to the FCC and actually
    resulted in cost recoveries and withholding of contractor invoice payments totaling
    $315,000 to date. In addition, the OIG supported the Federal Bureau of Investigation
    (FBI) and the United States Attorney's Office (USAO) for the District of Columbia, in
    obtaining a multi-count felony conviction of the subcontractor and a co-defendant. In
    this reporting period, the Commission reached a determination as to the administrative
    penalties to be assessed against FCC employees named in the report.

    The OIG has dedicated itself to assisting the Commission as it continues to improve its
    efficiency and effectiveness. The Inspector General (IG), H. Walker Feaster III, reports
    directly to the Chairman. The OIG is now located in the West wing of the Portals II in
    the FCC headquarters building at 445 12th Street, SW, Washington, D.C. 20554. Paul
    Brachfeld serves as the Assistant Inspector General for Audits (AIGA) and Charles J.
    Willoughby serves as the Counsel and Assistant Inspector General for Investigations
    (AIGI). During this reporting period two of the four auditors assigned to the OIG staff
    left the Commission for positions within other Federal agencies. One vacant position,
    the Senior Information Technology Auditor was filled with the selection of Walter
    Opaska formerly of the General Accounting Office. Mr. Thomas Bennett, who previously
    served with distinction in this office, will fill the second vacant position in March 1999.
    In addition, in this reporting period, the OIG was authorized to fill a vacant audit
    position by the Chairman. Mr. Steven Rickrode formerly of the Treasury OIG has
    accepted an offer to serve as our financial audit expert.

Semiannual Report to the Congress                                                    Page 3
    This report includes the major accomplishments and general activities of the OIG during
    the period October 1, 1998, through March 31, 1999, in accordance with Section 5 of the
    Inspector General Act of 1978, as amended 5 U.S.C. App. 3, 5.




               FCC’s new headquarters facility located at 445 12th Street, SW,
               Washington D.C.




Office of Inspector General                                                       Page 4
                                           Audits
    During the reporting period, the OIG issued two Audit Reports and a Special Review
    Report and drafted an additional Special Review Report, which was circulated for
    comment on April 7, 1999. Fieldwork commenced in two extremely important areas
    during this reporting period. The OIG, with contractor support, initiated a financial
    statement audit in February 1999. This comprehensive audit will be conducted in
    conformance with requirements contained in the Chief Financial Officer’s Act. In
    March 1999, the OIG initiated fieldwork to address the collectibility of auction loan debt.
    This work is being performed in conjunction with the President’s Council on Integrity
    and Efficiency (PCIE) and Executive Council on Integrity and Efficiency (ECIE).
    Additionally, OIG auditors continued to perform contract audit work, evaluate and test
    physical security of the Portals II site, evaluate Year 2000 (Y2K) preparedness and
    dedicated significant effort towards supporting complex investigative activity addressed
    in the investigative section of this semi-annual report.

    As noted in our prior semiannual report, the nature of the work performed at the FCC,
    and the customers that we serve, make the security and integrity of our information
    systems a paramount consideration. In testimony before the House Subcommittee on
    Commerce, Justice, State and the Judiciary on March 25, 1998, Chairman Kennard
    addressed the FCC's Year 2000 plans and related FY 1999 funding request of
    $5,765,000. The Chairman stated that "FCC systems which have been identified as
    having significant Year 2000 compliance issues include our applications processing, fees
    collection, tariff tracking and public comments filing systems. For each of these systems,
    we have completed requirements studies to replace them with restructured and, in many
    cases, integrated, state-of-the-art electronic filing and relational database systems." The
    OIG is currently engaged in auditing FCC Y2K initiatives and is working with the Chief
    Information Officer (CIO) to address issues as they are identified during the course of
    our fieldwork. In addition to monitoring the Commission's progress in dealing with Year
    2000 issues, an OIG auditor participates in a Commission working group that monitors
    the telecommunications and broadcasting industry efforts directed at addressing the Year
    2000 problem.

    OIG audit staff continue to monitor the FCC's activity related to the Government
    Performance and Results Act of 1993 (GPRA). GPRA is intended to improve efficiency
    and effectiveness of federal programs through the establishment of specific goals for
    program performance. The Office of Management and Budget (OMB) has called upon
    Inspector Generals to "assess agencies' technical compliance with the Results Act as well
    as their capacity to comply from a data and systems perspective." On March 26, 1999,
    the OIG issued the first in what will be a series of GPRA related reports entitled, “Final
    Report on the Audit of the Federal Communications Commission’s Implementation of the
    Government Performance and Results Act (GPRA).”

    The OIG continues to dedicate resources toward providing the Commission with contract
    audit support services. To maximize efficiency and effectiveness of operations, the
    Commission continues to rely upon contract personnel to provide unique expertise to
Semiannual Report to the Congress                                                    Page 5
    support Commission initiatives, most apparent in the information technology
    environment. In this reporting period, OIG contract auditors identified questioned costs
    totaling $140,833. OIG auditors also continued to provide technical input and
    assistance to the Chief, Contracts and Purchasing Center in addressing a contract
    dispute matter between a prime contractor and the FCC. In a prior reporting period, the
    OIG questioned subcontract labor costs billed to the FCC by the prime contractor of
    approximately $236,000. The prime contractor has disputed the OIG findings and
    submitted a counter claim of approximately $288,000. At the request of the Chief,
    Contracts and Purchasing Center, the OIG reviewed documentation provided by the
    contractor to “support” their counterclaim. The OIG determined that the documentation
    submitted did not support their claim. The OIG continues to support the original
    questioned cost finding.

    Staff Auditors also continued to support the Assistant Inspector General for
    Investigations in conducting investigations that involved alleged impropriety on the part
    of contractors and their personnel.

    Audit reports can generally be obtained via the Internet at the FCC website:
    www.fcc.gov. However, special review and audit reports containing sensitive or
    proprietary information will be restricted to specific individuals and organizations with a
    need to know.

SIGNIFICANT AUDIT ACTIVITY

    Commercial Mobile Radio Services Licensing and Fee Collection - Audit Report No.
    OIG 98-8 issued November 24, 1998

    This special review report reflects the results of work that was performed by the OIG
    related to Commercial Mobile Radio Service (CMRS) licensing and fee collection
    databases. Our findings reflect that licensing data maintained by the Wireless
    Telecommunications Bureau (WTB) and the associated regulatory fee collection data
    base maintained by the Billings and Collection (BCB), Office of the Managing Director
    (OMD) are not reconcilable. Thus, the auditors were unable to determine which FY
    1996 licensees had paid fees within the designated filing period per the schedule
    published in FCC Public Notice 75516 dated August 1, 1997.

    This condition resulted from the lack of a mechanism to reconcile the segregated data
    bases maintained by WTB and OMD which do not have a common data entry feeder
    stream. OIG efforts to perform such a reconciliation were offset by the lack of any
    common data fields other than station call sign which proved to be unreliable.
    Accordingly, the auditors determined that the FCC cannot attest to which FCC CMRS
    licensees have paid annual regulatory fees per Public law 103-66, "The Omnibus Budget
    Reconciliation Act of 1993."In a joint response, the Chief WTB and Managing Director
    indicated concurrence with OIG findings.

    Report on Request for Equitable Adjustment – Audit Report No. OIG 98-12 issued
    December 2, 1998


Office of Inspector General                                                          Page 6
    At the request of the Chief, Contracts and Purchasing Center, the OIG audited a FCC
    vendor’s Request for an Equitable Adjustment (REA), in the amount of $151,691. The
    proposal represented costs associated with a stop-work order issued by the FCC. The
    contractor was responsible for furnishing and installing eleven No Walk II carousels and
    software at the new FCC Headquarters Building (Portals II).

    Our audit disclosed $140,833 in questioned costs. The contractor claimed that as a
    result of circumstances outside their control, the FCC issued a stop-work order delaying
    the installation of the filing system. Per the contractor, this resulted in financial losses
    primarily related to unabsorbed home office indirect costs (overhead) and additional
    project management time expended by the contractor to coordinate overall project
    issues. OIG auditors questioned the entirety of the bulk of the contractor claim ($98,443)
    as there was no delay in the manufacturing or delivery of the equipment and no
    “damage” or loss was identified as a result of the stop-work order. An additional
    $13,864 of the contractors claimed loss of $19,864, for lost opportunities resulting from
    the FCC’s stop-work order, was not substantiated. The third major component of OIG
    questioned costs was related to proposed profit sought by the contractor.

    Final Report on the Audit of the Federal Communications Commission’s Implementation
    of the Government Performance Results Act – Audit Report No. OIG-98-01 issued on
    March 26, 1999

    The scope of this audit incorporated steps necessary to form an opinion as to the FCC’s
    compliance with requirements of the Government Performance Results Act (GPRA). The
    audit addressed those components of the Act that were to have been implemented as of
    the date audit fieldwork was concluded. The auditors determined that the FCC has made
    substantial progress towards developing a plan to meet GPRA objectives and
    requirements. However, the Commission has not consistently developed outcome-
    oriented annual performance goals. In fact, only eight percent of performance goals
    outlined in the FY 2000 budget statement to Congress were characterized by the auditors
    as outcome based.

    Program officials attributed this condition to a number of factors including the impact of
    the Telecommunications Act of 1996 on the Commission and difficulty in assessing
    results of a regulatory agency’s impact on constituents.

    The Managing Director concurred with the auditors finding and indicated that the
    Commission has begun to revise its strategic plan.




Semiannual Report to the Congress                                                     Page 7
                                    Investigations
    Investigative matters pursued by this office are generally initiated as a result of
    allegations received through the OIG hotline or from FCC managers and employees who
    contact the OIG directly. Investigations may also be predicated upon audit or inspection
    findings of fraud, waste, abuse, corruption, or mismanagement by FCC employees,
    contractors, and/or subcontractors. Upon receipt of an allegation of an administrative
    or criminal violation, the OIG usually conducts a preliminary inquiry to determine if an
    investigation is warranted. Investigations may involve possible violations of regulations
    regarding employee responsibilities and conduct, federal criminal law, and other
    regulations and statutes pertaining to the activities of the Commission. Investigative
    findings may lead to criminal or civil prosecution, or administrative action.

    The OIG also receives complaints from the general public, both private citizens and
    commercial enterprises, about the manner in which the FCC executes its programs and
    oversight responsibilities. All such complaints are examined to determine whether there
    is any basis for OIG audit or investigative action. If nothing within the jurisdiction of the
    OIG is alleged, the complaint is usually referred to the appropriate FCC bureau or office
    for response directly to the complainant. A copy of the response is also provided to the
    OIG.

    During this reporting period, twelve complaints were received in the OIG. Eleven of the
    complaints have resulted in the initiation of investigations or preliminary inquiries, and
    eight of the eleven matters were closed. Three complaints were closed because of
    determinations of no violations of standards of conduct by FCC employees. Five
    complaints were closed because they were found not to merit further action. Four of the
    complaints are still pending.

    The nine cases pending at the beginning of the period were closed. Three were closed
    when disciplinary action was taken by management. Three were closed because of
    determinations that insufficient evidence existed to find any violations of standards of
    conduct by FCC employees or contractors. Three were closed because the allegations
    were found not to warrant further action.




Office of Inspector General                                                            Page 8
STATISTICS

    Cases pending as of September 30, 1998                         9

    New cases                                                      12

    Cases closed                                                   17

    Cases pending as of March 31, 1999                             4

SIGNIFICANT INVESTIGATIVE CASE SUMMARIES

    ¾ The OIG continued to monitor the matter under Investigative Report 96-2-A-04,
      issued March 25, 1998, concerning FCC employees within the Spectrum Auctions
      Task Force who were identified as having exercised poor judgment and possibly
      violated provisions of the Federal Acquisitions Regulations (FAR) and Title 5 of the
      Code of Federal Regulations (CFR) Part 2635 Standards of Ethical Conduct for
      Employees of the Executive Branch. Management has imposed disciplinary action
      with respect to all of the cited employees and the matter has been closed.

    ¾ The OIG continues to monitor the matter concerning an employee at the FCC's
      Laurel laboratory facility who was videotaped allegedly stealing government supplies
      from the facility on multiple occasions. An investigative report was issued on April 9,
      1998. The matter was also referred to the Federal Protective Service for
      consideration of criminal charges. Federal law enforcement authorities have
      declined to prosecute. Disciplinary action has been taken against the employee. The
      employee has appealed the disciplinary action and the appeal is currently pending
      before management.

    ¾ On July 30, 1998, the OIG initiated an investigation based on allegations of FCC
      employees utilizing their computer workstations to access pornographic sites on the
      Internet in violation of FCC regulations and provisions of the Code of Federal
      Regulations concerning use of Government equipment and use of official time. The
      OIG determined that the employees in question had routinely and/or regularly
      accessed inappropriate sites on the Internet and issued a report to management on
      October 9, 1998. Disciplinary action has been taken against the employees and the
      matter has been closed.

    ¾ On September 9, 1998, an applicant for a vanity call license notified the Commission
      that he believed that someone at the Commission had used his credit card to make
      unauthorized purchases. The applicant reported that he had applied for a vanity call
      sign and had included information on his application to have the application fee
      charged to his credit card. He forwarded the application to the Mellon Bank in
      Pittsburgh, the processing center for license applications. On August 24, 1998, the
      applicant’s credit card number was used to purchase items in the Philadelphia area
      without his permission. The matter was referred to the OIG and an investigation
      was commenced in coordination with the security division of Mellon Bank. As part of
      the investigation, a review of the processing operation was conducted and contact
Semiannual Report to the Congress                                                  Page 9
        was initiated with the applicant’s credit card company to acquire information
        concerning the circumstances of the purchases. Based on the information developed
        in the course of the investigation, it was determined that the purchases were made
        prior to the receipt of the applicant’s application at the bank by persons within a
        credit card ring. Accordingly, since there was no indication of misconduct on the
        part of employees of either the Commission or Mellon Bank, the matter has been
        closed.

    ¾ On September 15, 1998, the OIG initiated a preliminary inquiry into allegations by a
      Section 8(a) contractor that his contract was not renewed because he had complained
      about having to perform services for which there was no statement of work, possibly
      in violation of FCC regulations. The contractor’s services consisted of
      administrative and facilities management services that had previously been
      performed by Federal employees. Those specific services included manning the
      Commission’s Help Desk, providing drivers for Commission personnel, and manning
      the Commission’s Transit Subsidy Office. The OIG found that the decision not to
      renew the contract in question complied with the terms of the contract and was based
      on legitimate budgetary and financial concerns. Further, the OIG found that there
      was no evidence of misconduct on the part of Commission employees, and the matter
      was closed.

    ¾ On September 28, 1998, the OIG initiated a preliminary inquiry into allegations by a
      prospective corporate supplier that a FCC solicitation for bids was unfairly and
      improperly biased in favor of another supplier. The solicitation pertained to the
      buying out of existing copier lease agreements and the supplying of new copiers for
      the Portals site. The OIG found that in light of the fact that other suppliers were
      able and did in fact submit bids and the submitted bids were competitive with each
      other, the process was not unfairly or improperly biased in favor of any supplier.

    ¾ On October 5, 1998, the OIG was notified by the Chief of Staff for the Commission
      that he had received information that an employee of the Commission had solicited
      persons for the purpose of hiring a lobbyist to lobby Congress against the proposed
      move of the Commission to the Portals site. An investigation was initiated. Through
      investigation, the OIG learned that the employee did contact the persons but at no
      time solicited them or indicated that he was contacting the persons in his official
      capacity and any use by the employee of official resources was nominal in nature.
      Management was notified of the OIG’s findings. Action has been taken with respect
      to the employee. Accordingly the matter has been closed.

    ¾ On October 28, 1998, the OIG received a request from Senator Trent Lott on behalf
      of a constituent of the Senator to investigate allegations by the constituent that a
      Commission employee was improperly involved in a matter pending before the
      Commission. Prior to becoming a Commission employee, the employee who is an
      attorney had represented a party in a matter before the Commission. Following his
      employment with the Commission, the employee terminated his representation of the
      party. The constituent suspected that after the employee ceased his representation of
      the individual, he continued his involvement in the matter and was influential in the
      final decision rendered by the Commission. An inquiry was initiated which included
      an interview of the complainant. As a result of the inquiry, the OIG determined that
Office of Inspector General                                                      Page 10
        the allegation was without merit and the matter was closed.

    ¾ On November 23, 1998, the OIG was notified by the Office of Public Affairs that the
      office had been contacted by the news director of a local television station to lodge a
      complaint regarding the conduct of a Commission employee. The news director
      stated that the employee had contacted the station to complain about a news segment
      and in the course of lodging the complaint had identified himself as a Commission
      employee. The news director found the employee’s comments and identification as a
      Commission employee improper in light of the fact that the Commission regulates the
      station. The OIG initiated an investigation to determine if the employee’s conduct or
      actions constituted a misuse of his position in violation of Title 5 of the Code of
      Federal Regulations. Through investigation, the OIG determined that the employee
      had called the station and complained about the news segment. In the course of the
      call, the employee did identify himself as an employee of the Commission. However,
      at no time did the employee state or infer that he would take any action in his
      capacity as a Commission employee or any other capacity. Management was notified
      of the OIG’s findings. The OIG determined that no further action was warranted and
      accordingly, the matter has been closed.

    ¾ On December 4, 1998, the OIG initiated a preliminary inquiry into allegations that a
      former employee may have made or had an improper contact with the Commission in
      violation of 18 U.S.C. Section 207 which prohibits certain post-employment activities
      by former employees. The alleged conduct consisted of the making of an affidavit by
      the former employee which was filed before a court of law in a subject matter over
      which the former employee had supervisory responsibilities while employed with
      Commission. Through investigation it was determined that the matter in question
      had not been under the supervisory responsibilities of the employee. Accordingly,
      because of the determination of no violation by the employee, the matter was closed.

HOTLINE CALLS
    During this reporting period, the OIG Hotline Technician received fifty-seven (57)
    hotline calls to the published hotline numbers of (202) 418-0473 and 1-888-863-
    2244(toll free). The OIG Hotline continues to be a vehicle by which Commission
    employees and parties external to the FCC can contact the OIG to speak with a trained
    Hotline Technician. Callers who have general questions or concerns not specifically
    related to the missions or functions of the OIG office are referred to the FCC National
    Call Center (NCC) at 1-888-225-5322. Examples of calls referred to the NCC include
    complaints pertaining to customers phone service and local cable providers, long-
    distance carrier slamming, interference, or similar matters within the program
    responsibility of other FCC bureaus and offices.




Semiannual Report to the Congress                                                 Page 11
                                       Legislation
OVERVIEW

    Pursuant to section 4(a)(2) of the Inspector General Act of 1978(IG Act), as amended,
    our office monitors and reviews existing and proposed legislative and regulatory items
    for their impact on the Office of the Inspector General and the Federal Communications
    Commission programs and operations. Specifically, we perform this activity to evaluate
    their potential for encouraging economy and efficiency and preventing fraud, waste, and
    mismanagement.

ACTIVITY DURING THIS PERIOD

    The Counsel to the IG continued to monitor legislative activities affecting the activities
    of the OIG and the FCC.

    Of particular concern or importance during this period are two events which appear to
    directly impact the independence of Inspectors General in the Designated Federal
    Entities (DFEs), of which the FCC is one. These events have arisen in two separate
    forums, both of which are outside the Inspector General community; a fact that appears
    to argue for greater or additional attention to the independence issues.

    The first event occurred when the Professional Ethics Committee of the American
    Institute of Certified Public Accountants (AICPA) proposed a revision of its rules that would
    result in DFE IG’s being deemed not sufficiently independent to issue audit reports under
    Generally Accepted Auditing Standards (GAAS). Under the proposed AICPA definition, the
    presidentially-appointed IGs would be treated as independent auditors, but the DFE IGs
    would be treated as “internal auditors” because they are appointed by their agency heads
    and, therefore, they are considered to be less independent. In response, 24 DFE IGs sent a
    letter challenging the AICPA’s proposed revision, and asserting that the manner of an IG’s
    appointment does not vest some (presidentially-appointed) IGs with more independence than
    others (agency-head appointed).

    The second event took place in February 1999 when a decision was issued by an
    administrative law judge (ALJ) with the Federal Labor Relations Authority (FLRA) that
    granted a bargaining unit employee of the National Labor Relations Board (NLRB) the
    right to have a union representative present during questioning by a NLRB OIG
    investigator. NLRB is a DFE agency. At issue was the alleged refusal of the investigator
    to permit the employee to be represented by his union during the investigative interview.
    This very issue is currently pending before the U.S. Supreme Court in FLRA v. National
    Aeronautics and Space Administration and National Aeronautics and Space
    Administration Office of Inspector General, 120 F.3d 1208 (11th Cir. 1997), cert.
    Granted, 199 S.Ct. 401(1998). Oral argument was heard on March 23, 1999. The ALJ
    who decided the NLRB case, however, concluded that the NLRB OIG case was not
    necessarily dependent on the outcome of the NASA case in the Supreme Court. The ALJ
    found that since the NLRB case involved a DFE IG, and the pending NASA case involved
Office of Inspector General                                                           Page 12
    a presidential-appointed IG, the cases were sufficiently dissimilar to distinguish them
    even before the Supreme rendered its decision. Specifically, the ALJ stated that:

    Unlike the Inspector General in NASA and the Inspectors General of other agencies
    defined by section 11 of the IG ACT as “establishments,” the Inspector General of the
    NLRB is appointed by its Chairman, who may also remove him or her. Although such
    removal must be explained to Congress, there are no formal limitations on the reasons
    for such action. The Inspector General, therefore, must rely solely on political
    considerations rather than on legal standards with respect to the security of his or her
    position.

    NLRB OIG and NLRBU, FLRA Case No. AT-CA-80026 (February 10, 1999), at 19.
    The ALJ did not elaborate on what legal standards a presidentially-appointed IG could
    rely on with respect to the security of his or her position, and went on to state that
    because a DFE IG serves at the pleasure of the agency head, and because of the
    agency’s role in establishing the OIG budget, a DFE IG also appears to have somewhat
    less independence than a presidentially-appointed Inspector General. Id. At 20.

    The significance of the two preceding cited events with respect to the independence of DFE
    IGs is clearly demonstrated when the events are considered in relation to the Inspector
    General Act of 1978(IG Act). The IG Act gives all IGs—those serving within DFE agencies
    who are appointed by the agency head as well as those in federal “establishments” who are
    appointed by the President with the advice and consent of the Senate—the same tools to
    carry out their responsibilities and to safeguard their independence. In short, all IGs have
    the same authorities under the IG Act to carry out their mission, whether they are appointed
    by an agency head or the President. An IG’s tools include the semiannual report to
    Congress and the authority to inform Congress by a “ seven-day letter” of a specific
    problem or dispute with agency management.

    Under the “general supervision” of the agency head, every IG reports only to that
    official in his/her agency. Every IG is also authorized to have ready access to the agency
    head, and to agency records that are needed to conduct independent audits and
    investigations. IGs are also authorized to subpoena documents from parties outside the
    agency in carrying out their duties, and all IGs are authorized to independently establish
    OIG priorities, taking into consideration, of course, expressed management concerns
    about agency operations and potential problems. Further, all IGs have final approval of
    OIG audit plans. While IGs are also given authority to manage the OIG’s own budget
    and to handle their office’s personnel and contracting activities, to ensure the office’s
    independence agency management cannot assign an OIG program or operational
    responsibilities, and are prohibited from interfering with or preventing the OIG from
    conducting audits or investigations.

    Several legislative proposals currently pending in the Congress directly affect IGs. In
    the coming months this office along with other DFE IGs, anticipate becoming more
    involved in working with Congress to address the independence issues related to IG
    functions and operations.



Semiannual Report to the Congress                                                   Page 13
                    Management and Administration
    During the six-month reporting period covered by this report, the FCC OIG has
    continued to dedicate staff towards assisting the agency in areas in which our expertise
    can provide benefit. As an example, OIG staff is engaged in a number of highly visible
    projects including preparation of automated systems for the Year 2000 (Y2K), and
    formalization of a Systems Development Life Cycle (SDLC) methodology within the
    Commission. Auditors are currently engaged with management in its’ attempt to address
    both internal Y2K systems operational concerns as well as measures taken by the critical
    industries that are regulated by the FCC. With regard to the SDLC project, the OIG has
    taken the lead roll in the development of a SDLC methodology that can be used by all
    Commission elements in the planning, development and implementation of FCC systems.

    The OIG also continues to provide training to new employees entering the Commission to
    ensure that they are aware of the responsibilities of the OIG, and the conduct that is
    expected of all FCC employees. In this reporting period, the OIG has developed a draft
    informational brochure to be distributed to all FCC employees. The brochure, which is
    currently being circulated for comment, defines the role and mission of the OIG. It also
    communicates the duties and responsibilities of all FCC employees when interfacing with
    OIG auditors and investigators. Concurrent with the update of the OIG informational
    brochure, the OIG is engaged in revising our strategic plan.




Office of Inspector General                                                      Page 14
 SPECIFIC REPORTING REQUIREMENTS OF SECTION 5(a) OF
             THE INSPECTOR GENERAL ACT

    The following summarizes the Office of Inspector General response to the twelve specific
    reporting requirements set forth in Section 5(a) of the Inspector General Act of 1978, as
    amended.

    1. A description of significant problems, abuses, and deficiencies relating to the
       administration of programs and operations of such establishment disclosed by such
       activities during the reporting period.

        No such problems, abuses, or deficiencies were disclosed during the reporting
        period.

    2. A description of the recommendations for corrective action made by the Office
       during the reporting period with respect to significant problems, abuses, or
       deficiencies identified pursuant to paragraph (1).

        No recommendations were made. See the response to paragraph (1).

    3. An identification of each significant recommendation described in previous semiannual
       reports on which corrective action has not been completed.

        No significant recommendations remain outstanding.

    4. A summary of matters referred to prosecutive authorities and the prosecutions and
       convictions which have resulted

        No matters were referred to prosecutive authorities during this reporting period.

    5. A summary of each report made to the head of the establishment under section
       (6)(b)(2) during the reporting period.

        No report was made to the Chairman of the FCC under section (6)(b)(2) during the
        reporting period.

    6. A listing, subdivided according to subject matter, of each audit report issued by the
       Office during the reporting period, and for each audit report, where applicable, the
       total dollar value of questioned costs (including a separate category for the dollar
       value of unsupported costs) and the dollar value of recommendations that funds be
       put to better use.

        Each audit report issued during the reporting period is listed according to subject
        matter and described in part II, above.

    7. A summary of each particularly significant report.
Semiannual Report to the Congress                                                   Page 15
        Each significant audit and investigative report issued during the reporting period is
        summarized within the body of this report.

    8. Statistical tables showing the total number of audit reports with questioned costs and
       the total dollar value of questioned costs.

        The required statistical table can be found at Attachment A to this report.

    9. Statistical tables showing the total number of audit reports with recommendations
       that funds be put to better use and the dollar value of such recommendations.

        The required statistical table can be found at Attachment B to this report.

    10. A summary of each audit report issued before the commencement of the reporting
        period for which no management decision has been made by the end of the reporting
        period (including the date and title of each such report), an explanation of the reasons
        such management decision has not been made, and a statement concerning the desired
        timetable for achieving a management decision on each such report.

        One audit report meets this criteria. The Report on Incurred Costs for Fiscal Years
        1995, 1996 and Short Year 1997 (OIG 97-18) was issued in September 1997. This
        incurred cost audit identified questioned costs of $265,180. The contractor has
        formally contested the OIG finding and submitted a counterclaim to the Chief,
        Contracts and Purchasing Center.

    11. A description and explanation of the reasons for any significant revised management
        decision made during the reporting period.

        No management decisions fall within this category.

    12. Information concerning any significant management decision with which the
        Inspector General is in disagreement.

        No management decisions fall within this category.




Office of Inspector General                                                           Page 16
